No. 19-47
IN THE

Oupreme Court of the Eluiteb ibtateo
JERYME MORGAN,
Petitioner,
v.
MINH SCHOTT, TIM VEATH, AND HUDSON MAYNARD,
Respondents.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit

CERTIFICATE OF SERVICE
I, Anthony F. Shelley, a member of the Bar of this Court, hereby certify that,
on August 7, 2019, I caused three copies of the Brief of Amicus Curiae The
National Association of Criminal Defense Lawyers in Support of Petitioner
in this case to be served by first-class mail, postage prepaid, on counsel of record for
all parties as set forth below. I also caused an electronic copy of the brief in PDF
format to be served on counsel of record for each party in this case. I further certify
that all persons required to be served have been served.

Michael Anthony Scodro
Mayer Brown LLP
71 South Wacker Drive
Chicago, IL 60606
312-701-8886
Email: mscodro@mayerbrown.com

Frank Henry Bieszczat
Office of the Illinois Attorney General
100 West Randolph Street, 12th Floor
Chicago, IL 60601
312-814-2234
Email: fbieszczat@atg.state.il.us

Counsel of Petitioner Jeryme Morgan

Counsel for Respondent Minh Schott, et al.

Anthony F. Shelley
Miller & Chevalier Chartered
900 Sixteenth St. NW
Washington, DC 20006
Telephone: 202-626-5800
Facsimile: 202-626-5801
E-mail: ashelley@milchev.com
Counsel for The National Association
of Criminal Defense Lawyers

